Office of Audits
Office of Inspector General
U.S. General Services Administration




IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
Audit of Personal Property Management
Donation Program
Federal Acquisition Service
Report Number A080104/Q/5/P09003
Dated August 25, 2009
Assignment Number A120072
January 19, 2012
               Office of Audits
               Office of Inspector General
               U.S. General Services Administration


 DATE:             January 19, 2012
 TO:               Steven J. Kempf
                   Commissioner, FAS

 FROM:             Hilda Garcia
                   Audit Manager, Great Lakes Region
 SUBJECT:          Implementation Review of Corrective Action Plan: Audit of Personal
                   Property Management Donation Program, Federal Acquisition Service
                   Report Number A080104/Q/5/P09003, Dated August 25, 2009

                   Assignment Number A120072

The Office of Inspector General has completed the implementation review of the
management actions taken in response to the recommendations contained in the
subject audit report (See Appendix A). The review found that the Federal Acquisition
Service (FAS) addressed the audit recommendations in the corrective action plan,
dated January October 23, 2009 (see Appendix B).

To accomplish this implementation review we: (1) examined the documentation
submitted by FAS which supported accomplishment of the action plan steps; (2)
performed limited testing of the implementation of the guidance contained in these
supporting documents; and (3) met and corresponded with FAS personnel.

If you have any questions regarding this review, please contact me or any member of
the team at the following:

Hilda Garcia         Audit Manager           Hilda.Garcia@gsaig.gov        (312) 353-6695
Michael Lamonica     Auditor-In-Charge       Michael.Lamonica@gsaig.gov    (312) 353-8481

On behalf of the team, I would like to thank you and your staff for your assistance during
this review.




                                         1
Appendix A – Recommendations from Report Number
A080104/Q/5/P09003
                                                                     Assignment Number A120072

The recommendations were that GSA Office of Personal Property Management:

       1. Enhance the monitoring of the State Agencies for Surplus Property by:
            A. Placing greater reliance on internal GSA automated records to assist in
               identifying potential problem areas,
            B. Simplifying and streamlining the SASP 1 reviews so they are carried out
               more frequently, and
            C. Assuring SASPs’ sales and donation rates are factored into allocation
               decisions.

       2. Minimize the processing of property outside the GSAXcess® system whenever
          possible; and

       3. Ensure donations processed outside GSAXcess® are promptly recorded in the
          system.




1
    SASP is the acronym used for State Agency for Surplus Property



                                                    A-1
Appendix B – Management’s Corrective Action Plan
                                      Assignment Number A120072




                         B-1
Appendix B – Management’s Corrective Action Plan (cont.)
                                       Assignment Number A120072




                         B-2
Appendix B – Management’s Corrective Action Plan (cont.)
                                       Assignment Number A120072




                         B-3
Appendix B – Management’s Corrective Action Plan (cont.)
                                       Assignment Number A120072




                         B-4
Appendix B – Management’s Corrective Action Plan (cont.)
                                       Assignment Number A120072




                         B-5
Appendix C – Report Distribution
                                                               Assignment Number A120072

Commissioner, Federal Acquisition Service (Q)

Assistant Commissioner Office of General Supplies & Services (QS)

Director, Office of Personal Property Management (QSC)

Audits and Controls Division (QBOC)

Inspector General (J)

Deputy Inspector General, Office of Inspector General (J)

Special Assistant for Communications, Office of Inspector General (J)

Staff Assistant to the Deputy Inspector General (J)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Auditing, Acquisition Programs (JA-A)

Division Director, GAO/IG Audit Response Division (H1C)




                                       C-1
